HHS/OIG, Audit - "Review of Undistributable Child Support Collections in
Minnesota From October 1, 1998, Through December 31, 2005," (A-05-06-00023)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Undistributable
Child Support Collections in Minnesota From October 1, 1998, Through December
31, 2005," (A-05-06-00023)
September 28, 2006
Complete Text of Report is available in PDF format (551 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine whether the Minnesota Department of Human Services (State agency) appropriately reported program income for undistributable child support collections and interest earned on program funds. For the quarters ended December 1998 through December 2005, the State agency did not recognize or report program income of $42,789 ($28,240 Federal share) for collections held more than three years and presumed abandoned according to State requirements. This amount consisted of unclaimed collections totaling $23,943 ($15,802 Federal share) and $18,846 ($12,438 Federal share) in uncashed checks that the State agency did not presume abandoned and transfer to the Commissioner of Commerce. The State agency properly reported interest earned on program funds as program income. We recommended that the State agency: (1) review the $42,789 ($28,240 Federal share) in unclaimed child support collections, transfer collections presumed abandoned to the Commissioner of Commerce, and report those funds as program income to the OCSE and (2) implement procedures to ensure that undistributable collections are identified, transferred to the Commissioner of Commerce, and reported as program income on the quarterly Federal financial report (Form OCSE-396A). The State agency agreed with our findings and intends to implement the recommendations.